IN THE

SUPREME COURT OF THE UNITED STATES

ANDRES ABELINO AYON-BRITO,
Petitioner,

v.

UNITED STATES OF AMERICA,
Respondent.

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

The petitioner asks leave to file the attached petition for a writ of certiorari
without prepayment of costs and to proceed in forma pauperis.

The petitioner has previously been granted leave to proceed in forma pauperis
in the following courts:

U.S. District Court for the Eastern District of Virginia,
Case No. 1:18CR259, by oral order entered December 20,
2018; and

U.S. Court of Appeals for the Fourth Circuit, Case No. 19-
44038, by written order dated June 5, 2019.

Because appellate counsel was appointed pursuant to the Criminal Justice Act

of 1964, 18 U.S.C. ยง 3006A, no affidavit or declaration of the petitioner is attached.
See S. Ct. R. 39.1.
May 28, 2021

Respectfully submitted,

Lamers

Geremy C. Kamens

Federal Public Defender

Counsel of Record

Office of the Federal Public Defender
for the Eastern District of Virginia

1650 King Street, Suite 500

Alexandria, VA 22314

(703) 600-0800

Geremy_Kamens@fd.org

 
